<html>
<title> - U.S. STRATEGY FOR AFGHANISTAN: ACHIEVING PEACE AND STABILITY IN THE GRAVEYARD OF EMPIRES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                U.S. STRATEGY FOR AFGHANISTAN: ACHIEVING
            PEACE AND STABILITY IN THE GRAVEYARD OF EMPIRES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2009

                               __________

                           Serial No. 111-25

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
48-441PDF                 WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ROBERT WEXLER, Florida
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
                David Adams, Subcommittee Staff Director
           Mark Walker, Republican Professional Staff Member
         Howard Diamond, Subcommittee Professional Staff Member
                   Dalis Blumenfeld, Staff Associate







                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Karin von Hippel, Ph.D., Co-director, Post-Conflict 
  Reconstruction Project, Center for Strategic and International 
  Studies........................................................    12
Seth G. Jones, Ph.D., Political Scientist, The RAND Corporation..    20
Anthony H. Cordesman, Ph.D., Arleigh A. Burke Chair in Strategy, 
  Center for Strategic & International Studies...................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Karin von Hippel, Ph.D.: Prepared statement......................    15
Seth G. Jones, Ph.D.: Prepared statement.........................    23
Anthony H. Cordesman, Ph.D.: Prepared statement..................    39
The Honorable Keith Ellison, a Representative in Congress from 
  the State of Minnesota: Article prepared by the United States 
  Institute of Peace entitled, ``Killing Friends, Making Enemies: 
  The Impact and Avoidance of Civilian Casualties in 
  Afghanistan''..................................................    73

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................    90
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    92
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    95

 
  U.S. STRATEGY FOR AFGHANISTAN: ACHIEVING PEACE AND STABILITY IN THE 
                          GRAVEYARD OF EMPIRES

                              ----------                              


                        THURSDAY, APRIL 2, 2009

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room 2172, Rayburn House Office Building, the Honorable Gary L. 
Ackerman (chairman of the subcommittee) presiding.
    Mr. Ackerman. The subcommittee will come to order.
    Last week, President Obama announced his new strategy for 
fighting extremists in Afghanistan and Pakistan. I 
wholeheartedly support the President's new approach. The 
previous administration--by its own admission--never recognized 
that the true central front in the struggle to secure our 
nation was Afghanistan, where the 9/11 attacks were 
orchestrated, not Iraq. It has been clear for years that the 
last administration took its eye off the ball and allowed al-
Qaeda and the Taliban to regroup and rearm in Afghanistan and 
the tribal areas of Pakistan. For years, the fight against 
extremists has been under-manned, under-funded and lacked a 
coherent strategy. President Obama's new strategy recognizes 
those facts and moves aggressively to address them. I am 
gratified that it contained many elements that I and others in 
Congress have been urging for several years.
    First, the President laid out a clear objective which is, 
``to dispute, dismantle and defeat al-Qaeda in Pakistan and 
Afghanistan and to prevent the return to either country in the 
future.'' I know that there has been concern expressed that 
focusing our attention on al-Qaeda--the reason United States 
forces are in Afghanistan in the first place--somehow means 
that we are abandoning our efforts to establish functioning 
democratic government in that country.
    I think a close examination of the strategy reveals that 
the President intends to both stabilize the security situation 
in Afghanistan and continue our work to improve governance 
there. Successfully focusing on al-Qaeda will give us and our 
allies the ``exit strategy'' the Presidents wants in order to 
reduce our military footprint there and to sustain allied 
involvement. But that does not mean that work on Afghanistan's 
democratic institution will not continue.
    No discussion of an exit from Afghanistan can even be 
contemplated until the security situation is stable and al-
Qaeda and the Taliban can no longer use Afghanistan as a base 
for terrorist operations. In the near team that means more 
troops. I have been calling for additional United States forces 
for Afghanistan since 2002, so the President's announcement of 
17,000 additional combat troops and 4,000 additional trainers 
is a welcome development. It is clear that neither we nor the 
Afghans have sufficient forces to take and hold territory once 
it has been cleared of extremists. More U.S. forces will allow 
us to do that. In the long term, more and better trained Afghan 
forces will be able to do it for themselves, allowing U.S. and 
other NATO forces to recede into the background and ultimately 
withdraw.
    While we are on the subject of NATO, I know that the 
President will use the summit tomorrow to remind our allies 
that Afghanistan is their fight too. While some NATO allies may 
not be willing to provide more combat soldiers, there are other 
capabilities that they could provide--such as strategic airlift 
and military trainers and mentors--that would support the 
overall security mission there. There are also civilian aspects 
of reconstruction and capacity-building at both the national 
and local government levels with which our allies could assist.
    But more resources from more countries also has to mean 
more and better coordination by us. A signature result of the 
Bush administration strategy of subcontracting Afghanistan to 
our allies is that there has been little central coordination 
of either the political or military effort, and many nations 
sent forces with vastly different rules of engagement.
    Each nation charged with security for a portion of the 
country, or rebuilding some devastated Afghan institution went 
off in their own direction, with their own objectives, and 
reported to their own national capital. It should surprise no 
one that as a result, little was accomplished. Afghanistan is a 
case study of what happens when the United States abandons its 
leadership role in an international security crisis. What is 
most remarkable is that it has not turned out even worse.
    More resources also means more money, from us and the 
international community. But as the President's plan makes 
clear, more of the money needs to reach the Afghan people and 
much, much less of it should be spent inside the beltway on 
consultants or on overhead. Our assistance should be used to 
purchase goods and services from Afghan providers and to put 
Afghans to work.
    We cannot talk about strategy in Afghanistan without 
talking about narcotics and the corrosive effect drug 
trafficking has on security and governance. Afghanistan is the 
source of 93 percent of the world's opium and, even though the 
most recent report by the U.N. Office on Crime and Drugs show 
an increase in the number of poppy-free provinces and an 
overall decrease in the amount of opium produced, there is 
still far too much drug money sloshing around in Afghanistan 
tempting everyone from local policemen to provincial governors. 
Afghans will never believe they have a real alternative to the 
Taliban as long as they see local and even national officers on 
the take.
    Opium eradication, crop substitution, effective 
transportation for those crops and improved local security all 
have to be combined in order to make legal crops safe and 
profitable for Afghan farmers. In a nation where 70 percent of 
the population lives in the countryside, safe and profitable 
alternatives to poppy production are not optional.
    The President's strategy recognizes the need for an 
effective counternarcotics strategy by combining the elements I 
have just described with new authorities for the United States 
and NATO forces to directly support Afghan counternarcotics 
units during the interdiction of narcotics traffickers.
    There is one more element necessary for a successful 
strategy and that is a coherent regional approach. In 
particular, one that deals effectively with Iran and Pakistan. 
As usual, Iran has tried to have it both ways in Afghanistan. 
On the one hand they have legitimate concerns regarding the 
impact of narcotics trafficking and the attendant instability 
that results, yet there is also significant evidence that Iran 
has shipped weapons to the Taliban in an effort to gain 
leverage over us.
    The United States has talked to Iran before in the context 
of Afghanistan and it is a positive sign that Iran attended the 
international meeting on Afghanistan earlier this week. But 
while we seek their cooperation in Afghanistan, we should also 
insist that they stop arms shipments to the Taliban in 
accordance with U.N. Security Council Resolution 1390.
    The question of Pakistan's role is even more complex and 
frankly merits its own separate hearing. Suffice to say that 
the entire endeavor in Afghanistan is unlikely to succeed if 
terrorist safe havens in Pakistan are not eliminated. The 
Government of Pakistan, and more importantly, the people of 
Pakistan must come to realize that the terrorists they have 
nurtured for decades have now turned on them as this week's 
attack in Lahore clearly demonstrates. The fight against 
extremists is not solely an American fight, nor is it solely an 
Afghan fight. The fight belongs to Pakistan too. It is a fight 
for their very existence as a nation and they ignore the 
problem at their own peril. I cannot say it more clearly: There 
is a real and present danger to Pakistan's survival, but it 
comes from inside, not outside the country.
    President Obama's strategy for Afghanistan is a welcome, 
indeed, desperately needed change from 8 years of reliance on 
ad hoc, under-funded, under-manned, uncoordinated, and faith-
based strategies. It is finally time to devote our attention, 
our energy and resources to defeating the terrorists who 
attacked us on 9/11. My strong view is that the President has 
given us a realistic strategy to accomplish that goal.
    And now I would like to turn to our good friend, acting in 
place of the ranking member, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
appreciate you calling this hearing, and I appreciate the many 
years that we have spent discussing this issue as things got 
better and got worse, and got better and got worse over the 
years.
    I certainly support the President's new focus on 
Afghanistan. I am not sure if it is a policy. I have been 
listening very closely as people have been talking, and I will 
listen very closely today, to see if it is a strategy. It does 
not seem to be that way to me, Mr. Chairman. It seems to be 
statements, and seems to be concepts that are being thrown out. 
I would hope that this, number one, is not just for PR, and 
that instead what we have got from the administration is a 
policy in the making. Perhaps what the President is doing and 
perhaps what we have seen and how we have been briefed for the 
last month is an example of the administration reaching out and 
trying to find new idea and trying to come up with a strategy. 
So far all I have heard are slogans that most of which I hate 
to say will not work.
    When we look back on Afghanistan, a lot of people blame 
Ronald Reagan for involving us there with supporting the 
Mujahideen against the Soviet army. I do not believe that was a 
mistake. I think that support helped end the Cold War. I think 
the bravery and courage of the Afghan people, coupled with 
President Reagan's willingness to help them, brought an end to 
the Cold War. The Afghans played a significant part and thus we 
owe them a great debt.
    However, when President Bush, the first President Bush was 
in power after the Russians were forced out, we walked away. So 
if we have to find where the chain of responsibility is, I do 
not put it on people who would say that helping the Mujahideen 
and ending the Cold War was where this started. That was 
successful. What was not successful was after President Reagan 
left, the senior President Bush cut a deal with Pakistan and 
Saudi Arabia and walked away, and left the future of 
Afghanistan, these brave people who fought and died in alliance 
with us, let them jus sleep in the rubble.
    Furthermore, when President Clinton became President, in 
order to stabilize the situation a further deal was made for 
the United States to covertly support the Taliban. Yes, that is 
right. The United States, Saudi Arabia and Pakistan created the 
Taliban and during the Clinton administration they dutifully 
supported the Taliban against the forces within Afghanistan 
that did not want that type of radical Islamic government. So 
many examples of that that it was mindboggling at the time.
    But let me note even here we have had witnesses that on the 
record have contradicted the State Department when Ben Gilman 
sat in this seat, along with me and requested all of the 
documents from the State Department in our dealing with Afghan 
policy, the State Department did not--not only did not comply, 
but arrogantly cut us off the chairman of this committee from 
information, and just a few weeks ago when former Secretary of 
State--Assistant Secretary of State Inderfurth was here, there 
was testimony indicating that a memo had been sent with very 
important information, which is exactly what we were requesting 
that was withheld from us by the State Department.
    This is a democratic society. We cannot put up with that, 
Mr. Chairman. We need to have an honest discussion of issues 
between the Executive and Legislative Branch. This not closed 
government making decisions, and we elected officials being 
told about it.
    So now we have President Obama. During the Bush years, of 
course, we paid for what happened with our support of the 
Taliban, and by first President Bush's walking away, we paid 
for it in 9/11, and I would note I will submit for the record 
places where about ten times I suggested that, and you were 
present during my warnings that if we did not change our policy 
in Afghanistan it would come back and hurt us in a big way.
    So President Bush after 9/11 was forced to deal with that, 
President George W. Bush. Unfortunately, he walked away as 
well. We walked away, and we walked away and turned the corner 
and went over to Iraq. Instead of keeping our promises to the 
Afghan people who drove out the Taliban, the people who had 
committed the crime against us, we walked away and spent our 
money in another endeavor in Iraq. We walked away again. We did 
not keep our promise again, and all of this talk about how we 
defeated the Taliban after 9/11 is jus nonsense. It was the 
Afghan people and it was the remnants of the Mujahideen. It was 
the Northern Alliance that drove the Taliban out of 
Afghanistan, again with our help, based on a promise that we 
would now stick with them, and we did not.
    So now we have President Obama, and I hear what is being 
said but I hate to suggest that, as I say, I do not see the 
policy. I am hoping this is a policy in the making. If it is, 
let us have a discussion about it today. But from what I have 
heard, what I have heard, the ideas being presented will not 
work, and the situation will not get better.
    Mr. Chairman, the structure that I have been told I have 
been told about, the structure that I have seen in ``classified 
briefings,'' the structure that we are supporting is a non-
democratic structure for Afghanistan. Let me repeat that. We 
keep hearing about democracy and how important it is, freedom, 
there is a non--what we have been presented by the 
administration is a plan that will not permit democracy at the 
local level. I would challenge the administration, I would 
challenge anyone who cares about the Afghan people or wants to 
finally find a solution to understand that Afghanistan has 
never been ruled from the center, and we should admit that, we 
should embrace it, and we should make sure that people all the 
way down to the village have a right to elect their local 
officials. Our plan is based on provincial governors being 
appointed. District people being appointed all he way down to 
the bottom, and let me suggest that that is exactly the wrong 
approach. We have not included the local militias.
    Again, we talk about building the Afghan army and cutting 
deals with other governments, with the leaders of other 
governments. That will not work.
    Mr. Chairman, and again your thoughts on the drug war were, 
I think, on target, but yet what I have heard is a down playing 
of our commitment for drug eradication in Afghanistan.
    So I think that this is vitally important for us to discuss 
these issues. There are serious questions for those of us who 
are supporting an effort that will succeed in Afghanistan, but 
what we have now is a plan, from what I can see is a non-plan 
that will not work, so let us discuss it, let us work with the 
administration, try to come up with something that will work so 
that we do not walk away again with a tragedy in the making in 
Afghanistan.
    Thank you very much, Mr. Chairman.
    Mr. Ackerman. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. I will be brief 
because I want to hear from our witnesses. I am glad to see 
President Obama and his renewed emphasis on the region that 
launched the 9/11 attacks on our country, but we cannot have a 
United States strategy on Afghanistan unless we have a United 
States strategy on Afghan poppy and how to deal with that. As 
the chairman said in his remarks, over 90 percent of the 
world's poppy. We have to look at broader, smarter strategies 
in terms of alternative crops, genetically-altered crops, legal 
markets in terms of use by pharmaceutical companies. These cash 
crops fuel extremists and terrorist activity. It lines the 
pockets of corrupt officials and skews government reforms. Drug 
routes make their way through Europe and also to the United 
States, and even to my home city of St. Louis. So this has to 
be fundamental in our U.S. strategy, and I look forward to 
hearing about that.
    Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. The ranking member, Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. I am sorry I was a 
little late. There is a heck of a traffic jam out there on the 
road. I sat there for over an hour which might be of interest 
to everybody.
    Mr. Ackerman. A break for us.
    Mr. Burton. I am anxious to hear from the witnesses today. 
The one thing that I recall about Vietnam was that the enemy 
had the ability to go into sanctuaries across borders, and as a 
result, in Cambodia and Laos, which were supposedly prohibited 
from being attacked, led to one of the big problems that we 
faced in that conflict.
    We now have a similar situation with Pakistan. The Taliban 
and their contemporaries seem to go back and forth across that 
border with some ease, and I do admire the administration for 
going after them with drones and air-to-surface missiles that 
knock out some of their leaders. But I would just like to know 
today how far we are willing to go.
    Pakistan was very instrumental in us winning the war, 
helping them win the war, the Afghanistan tribal leaders win 
the war against the Russians, and it was a conduit for us 
getting some military equipment in there that shot down Russian 
helicopters. I think Dana knows about that because you were 
over there. But I would like to know how far the cooperation 
with the Pakistanis is going to go, what kind of problems they 
are going to face with the people inside their country that are 
upset about the United States hitting targets in Pakistan, and 
whether or not we are willing to go all-out to eliminate those 
sanctuaries so that the Taliban cannot run back and forth 
across that border with impunity. I think that is one of the 
key elements.
    I believe our troops in every single battle, whether it has 
been a fight, have done very, very well. They won. But the 
problem is if we cannot pursue them back across that border and 
knock them out in their areas of sanctuary, I think we are 
going to have a long and drawn out problem. So I would like to 
have some answers about that from our witnesses, and I really 
appreciate you being here today.
    Mr. Ackerman. Thank you. Mr. Klein.
    Mr. Klein. Thank you, Mr. Chairman, I appreciate the 
witnesses coming to talk to us today about the important 
strategies to move forward on Afghanistan.
    I had a chance to travel with the chairman and others, 
Democrats and Republicans, to Afghanistan a couple of months 
ago, and to see firsthand some of the things on the ground, met 
with some of the military leaders, and some of the civilian 
leaders, met with some of our folks to get some ideas on the 
PRTs, the teams that are doing the reconstruction.
    I also had a chance recently to meet in Washington with 
Minister Zia to talk about the National Solidarity Program, and 
I think that what I heard in the laying out of the policy from 
the administration, which I appreciate the fact that it is 
being thought through from top to bottom with excellent advice 
from our military leaders, with excellent advice from our non-
military people who understand what it is going to take to get 
the Afghan people to support this, which is the redevelopment 
of their country, switching from poppies to wheat or 
pomegranates or anything else, but recognizing that it is not 
just military power that will be the solution here, and your 
comments today, if you can talk to us about the National 
Solidarity Program, your thinking on whether it is working, how 
it is working, the notions of the transparency, the money going 
in, outcome, coming out, and obviously that as well as the 
coordinated effort.
    Mr. Chairman, we heard about the reconstruction teams that 
the United States is putting forward, we heard a lot about 
European--different countries doing it, and not a lot of 
coordination, and we all know that the effectiveness of this 
thing will be the effective coordination, and the ability to 
share information and strategies, so if you could comment as 
well on those, I would appreciate it, and I thank the chairman.
    Mr. Ackerman. Thank you. Mr. Ellison.
    Mr. Ellison. Mr. Chairman, thank you for this excellent 
hearing, very timely. I would also like to thank our witnesses, 
Dr. von Hippel, Dr. Cordesman and Dr. Jones, appreciate all of 
you being here to share with us.
    I am very pleased about the new strategy of Afghanistan and 
Pakistan, and I am also encouraged to see that the United 
States is intending to pursue a smarter, more comprehensive 
strategy, particularly on more constructive diplomacy through 
enhanced cooperation with local leaders and international 
partners to promote a reconciliation process. I would like to 
hear about that in the course of the witness testimony.
    I also welcome the policy to support basic human rights for 
Afghan people and the focus on regional and civilian-led 
approach, and the emphasis on reconstruction and development 
that has been accompanied by a regular monitoring and 
evaluation.
    I am concerned and I would like to hear some testimony 
about yesterday's suicide bombings in Kandahar that killed 13 
people, including two provisional council officials, and by a 
missile strike in northwest Pakistan yesterday that killed 
about 10 people. I would like to get some information on that 
and be brought up to date, if possible. I would also like to be 
interested to hear your views, I mean, all the panelists, on 
the analyses of these incidents and what they mean in the 
larger framework.
    I would also like to know--we have talked about Pakistan 
and the important regional role it plays, but I am also aware 
that Ambassador Holbrooke met briefly with Iran's deputy 
foreign minister at the Hague conference in The Netherlands, 
and I would like to know what role Iran might play in a 
constructive way regarding the stabilization and development of 
Afghanistan. I think it is important to take all these factors 
into consideration, and in this regard I would like to hear 
your opinions about the different and complementary roles that 
Ambassador Holbrooke and Ambassador Ross, and Senator Mitchell 
could play in enhancing a regional approach.
    And most importantly, I am interested to hear about the 
implementation aspect of the new strategy and how we can avoid 
repeating past mistakes. I am glad to hear the level of passion 
on both sides of the aisle about the importance of a new way 
forward in Afghanistan and hope that we can work in a 
bipartisan way to see a stable, productive, and prosperous 
Afghanistan. Thank you.
    Mr. Ackerman. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and I want to thank 
you for organizing this hearing, and thanks to our witnesses 
for appearing today. Running a little bit late because I have a 
hearing in oversight and government reform at the same time, so 
forgive me for running back and forth.
    After reviewing President Obama's plan for Afghanistan and 
Pakistan, I am optimistic about the progress we can achieve in 
the region. We must commit ourselves to the goal of attaining 
long-term stability in South and Central Asia by dismantling 
al-Qaeda. However, we must not let our enthusiasm for peace in 
Afghanistan and Pakistan temper our firm insistence on 
accountability for all parties involved.
    After my own recent visit to Afghanistan, I agree with the 
President that all who have a stake in the security of the 
region should cooperate to stabilize that country. Not only 
must we work with the people of Afghanistan, however, we must 
also look to Pakistan, a key regional player in the Asian 
subcontinent. We have an opportunity to work with Pakistan and 
we must ensure that Pakistani, American and Afghan interests 
are aligned toward one goal--peace and stability in the region.
    The State of Pakistan can be a formidable ally in our 
desire for regional stability, but the remain and unanswered 
lingering doubts about Pakistan's full commitment to these 
objectives in Afghanistan. Congresswoman Harman and I, along 
with Congresswoman Tauscher and Congressman Royce, a fellow 
member of this subcommittee, have introduced H.R. 1463, to 
condition future military aid to Pakistan on two thing: That 
the Pakistani Government make A.Q. Khan available for 
questioning by United States authorities, and that it monitor 
Mr. Khan's activities.
    With the cooperation of the United States, Afghanistan and 
Pakistan, we can work to eliminate Taliban's strongholds which 
threaten the peace-loving citizens of three nations as well as 
peace-loving citizens in the rest of the world. As the 
President has stated, our NATO allies and our other partners, 
the Central Asian states, gulf nations, Iran, Russia, India and 
China, have a stake in the promise of lasting peace and 
security and development in the region.
    Mr. Chairman, if I might ask, I would be interested in the 
panelists' reaction to the legislation I made reference to, 
introduced by Congresswoman Harman and myself and others, about 
the need for Pakistan to produce the scientist who has been 
credited perhaps as being the number one nuclear proliferator 
in the history of human kind, to make sure that he is available 
to United States authorities as a precondition for continued 
military cooperation and assistance to Pakistan, Dr. von 
Hippel. Any reaction to that legislation or that notion?
    Mr. Ackerman. We are just making opening statements.
    Mr. Connolly. Oh, excuse me. I am sorry, Mr. Chairman. I 
yield back my time, Mr. Chairman. I am so sorry.
    Mr. Ackerman. No problem. Thank you very much. You will 
have a chance to go around again with questions.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, for holding the hearing 
today and I welcome our panel. President Obama recently 
announced the results of his administration's strategic review 
of the Afghanistan-Pakistan policy, viewing the two as 
intertwined, and I could not agree more with the President.
    I visited the border with my colleague, Mike McCall, and 
Congressman Quaire between Pakistan and Afghanistan last summer 
and saw how porous it is. Pakistani and Afghan militants are 
increasingly merging and pooling their efforts against 
governments in both countries, and these militants also 
threaten supply line. Yet Pakistan has not cooperated as best 
as they can with us in putting pressure on the Taliban leaders.
    Well, what are our recommendations for addressing this 
issue as this panel has moved forward toward--with a Pakistani 
bill this spring? Going back to the topic of Afghanistan, 
General David McCurren, the overall NATO and United States 
commander in Afghanistan maintains that our mission is winable, 
and after my visit I know firsthand how hard our military is 
working toward this mission, not only fighting the insurgents 
but through civilian efforts aimed at rebuilding Afghanistan's 
economy and infrastructure.
    I have to admit I flew around to Khost and Gardez in Ghanzi 
with a one-star general, Mr. Chairman, who told us, he said he 
is a helicopter--he was trained as a helicopter pilot, and yet 
his biggest issue now is not only building that road from Khost 
to Gardez, but also making sure we build health clinics and 
schools in the area, and he said we are fighting the outlaws, 
but we also need to make sure we bring a different way of life 
to the folks, and I think that is our stated mission and we 
need to stick with that.
    While I was there, I visited the 451st civil affairs units 
army reserve that was from the district I represent, and they 
were working on building that road and working out in the 
community in those areas, and I think we are making progress 
with our civilian efforts, but we need to redouble those 
efforts and make sure that we not only deal with the military 
side but also with bringing up the average wage and lifestyle 
of the Afghanis<greek-l>tanis deg..
    I have questions on how well our efforts have been as far 
as nation building. Some observers say that the Afghan people 
have become disillusioned with the corruption in President 
Karzai's government, and this sentiment is causing many to 
accommodate Taliban insurgents. I am interested in our panel's 
views on this, particularly with the Presidential election set 
for August, and what is our understanding of the prospects for 
President Karzai to be reelected, and if he is not, what could 
this mean for our policy toward Afghanistan.
    And again, Mr. Chairman, I thank you for this hearing. It 
is so important to our country.
    Mr. Ackerman. Thank you very much. Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, let me add my appreciation 
for the continued effort of this subcommittee being keenly 
current in its assessment of America's foreign policy and as 
well its impact on America's foreign policy and the hearing 
today on Afghanistan, I think, gives us an opportunity to probe 
the positions and the proposals of the administration.
    There is no doubt that many of us who had differing 
opinions on the war in Iraq have consistently said that our 
focus should have been on Afghanistan. I do think the issue of 
the 17,000 troops and 4,000 trainers will continue to be 
monitored by many of us who do not want to see a long extended 
strategy that puts us somewhat in the predicament of an ongoing 
50-year presence, but we recognize that focus, collaboration is 
crucial.
    However, I also believe that partnership is important and 
certainly the partnership with Pakistan is a must. I also 
believe that we have to re-frame our sunglasses on Pakistan and 
recognize that Dr. Khan represented an era, not a totality. All 
of us want to fight nuclear proliferation, but if we are to 
overcome the Taliban and the host position that Pakistan seems 
to have with respect to Osama bin Laden and al-Qaeda and 
Taliban interests that want to destroy both countries, then 
they have to be a viable partner. We have to look at the issues 
of economic development in Pakistan, education in Pakistan. We 
have to face the illiteracy rate in Afghanistan. We also have 
to face the reality that it is a decentralized country.
    I do not know how any President, whether it is President 
Karzai or someone else, is going to alter the structure that 
Afghanis have lived under for centuries, but I do believe it is 
important for this committee to have a strategy in 
collaboration with the administration, and I would offer as I 
close that strategy should be restoring governance of 
Afghanistan to its people, letting them have the resources to 
educate their children, cease and desist or eliminate the 
Taliban's authority in Afghanistan, recognize the vitality of 
the Afghanistan people who want to have a democratic nation, 
bolster their democratic opportunities, and join with them to 
insist on their participation in the opposition to terrorism.
    I yield back, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, members of 
the committee, our witnesses. I think today's hearing and the 
title, ``Achieving Peace and Stability in the Graveyard of 
Empires'' is an apt title for the discussion at hand.
    My first visit to Afghanistan was 4 years ago, and like 
many of my colleagues visiting not only in Kabul but going down 
to Kandahar and visiting our PRTs or provisional reconstruction 
team settings and attempting, whether it be clinics or schools 
or roads, the amazing things that the NATO forces have been 
able to do, but yet realizing that that is not necessarily the 
primary effort or operations of a force, a combat force whose 
principal role is to focus on the Taliban, and al-Qaeda, and to 
clear the area for a peaceful government for Afghanistan.
    And so how we transfer the soft power in a way that makes 
sense on roles that I think are really more appropriate of the 
Department of State and other areas, I would be interested in 
terms of the witnesses' comments here today. Clearly, the 
notion that, first 4 years ago when I went, that the President 
of Afghanistan was not a lot more than the mayor of Kabul, 4 
years later is one I think we need to consider vis-a-vis the 
corruption that has taken place, and I would be interested on 
your take on the progress of that.
    I was there last year, 4 years later, went up to Konar, 
Kumbar Province, up past Tora Bora, saw again the roads that we 
are building and the progress that has been made in some areas, 
but I want to know from the witnesses today about this multi-
strategy, how we do it in collaboration with our allies and 
NATO, where the leads to vis-a-vis an exit strategy, how well 
you think this has been enunciated just last week by the 
President's new policy, and whether or not you think it is 
practical or whether or not in fact it can be implemented in 
the long haul because I really think this is akin to--I noted 4 
years ago and last year when I was there again--Korean, Korea 
in this sense.
    We ended the conflict in 1952, but in the fifties and the 
sixties it was a tough slog, and the success of South Korea 
really has not been acknowledged until the last 20-30 years. So 
I mean, that is the kind of long haul I think we are in for if 
this is going to be successful, therefore stability in a 
graveyard of empires, I think, trying to achieve this peace is 
so aptly named, Mr. Chairman. I want to commend you for your 
thought in this, and I look forward to the testimony that we 
will received.
    Mr. Ackerman. Thank you. I will pass the kudos to the staff 
for coming up with the title of the hearing.
    Speaking of long haul, the bells have indicated that there 
are votes that are beginning in the House. Unfortunately, it is 
a long series of votes. This is usually the point that the 
hearing, having heard our conclusions, you would edify us with 
the facts. [Laughter.]
    What I think we will do is forego for now the introduction 
of the expert witnesses, because some of us are old and by the 
time we come back we will forget who you were. It looks like we 
have at least an hour and a quarter worth of votes. So rather 
than interrupt you we will break now, let you stand down and 
think of how to respond to some of the questions that you are 
bound to hear, and go off to the floor. I would encourage 
members to return, but usually history shows us that there will 
be few of us and your odds will improve. We stand in recess.
    [Recess.]
    Mr. Ackerman. The subcommittee will come back to order.
    We will now turn to our witnesses. Dr. Karin von Hippel is 
the co-director of the Post-Conflict Reconstruction Project at 
the Center for Strategic and International Studies, and a 
senior fellow in the CSIS International Security Program. Her 
research has focused on analysis of issues related to countries 
in conflict and transition, including Afghanistan, Pakistan, 
Iraq and Lebanon.
    Prior to joining CSIS, Dr. von Hippel was a senior research 
fellow at the Center for Defense Studies, King's College London 
where she managed research projects on issues including, the 
root causes of terrorism, European counterterrorism reforms, 
and the future of the U.N. humanitarian system. Before that she 
spent several years working for the United Nations, and the 
European Union in Somalia and Kosovo.
    Dr. Seth Jones is a senior political scientist at RAND and 
an adjunct professor at Georgetown University's Edmund A. Walsh 
School of Foreign Service and the U.S. Naval Postgraduate 
School. His areas of expertise include United States and 
European counterterrorism, and counterinsurgency operations in 
Afghanistan and Iraq, and best practices in nation building. 
Dr. Jones most recent publications include counterinsurgency in 
Afghanistan and how terrorist groups end, lessons for 
encountering al-Qaeda, and he is the author of the forthcoming 
book, ``In the Graveyard of Empires: America's War in 
Afghanistan,'' as well as, ``The Rise of European Security 
Cooperation.''
    Dr. Anthony Cordesman holds the Arleigh A. Burke Chair in 
Strategy at the Center for Strategic and International Studies, 
and is also a national security analyst for ABC News. During 
his time at CSIS, he has led studies on the issues including, 
the wars in Iraq and Afghanistan, armed nation building, and 
counterinsurgency.
    Dr. Cordesman formerly served as national security 
assistant to Senator John McCain and as director of 
intelligence assessment in the Office of Secretary of Defense. 
He is the author of over 50 books, including a four-volume 
series on the lessons of modern war.
    The committee welcomes all of you. Sorry for the long wait 
as we have been voting. Your full, complete statements will be 
placed in the record in their entirety, and Dr. von Hippel, we 
will begin with you.

    STATEMENT OF KARIN VON HIPPEL, PH.D., CO-DIRECTOR, POST-
   CONFLICT RECONSTRUCTION PROJECT, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Ms. von Hippel. Thank you very much, Chairman Ackerman and 
distinguished members of the subcommittee. It is a pleasure to 
be here and to be invited to testify on United States strategy 
in Afghanistan. Today, I wanted to focus my remarks on one area 
that will be critical to our success, and that is in forging a 
new partnership with the Afghan people and Government.
    I think even though we all recognize that the key to a 
successful counterinsurgency strategy is the build component of 
the shape, clear, hold, build arrangement, and build here means 
providing basic services and strengthening governance. Thus far 
we have not succeeded in building despite the billions of 
dollars that we have spent so far.
    The good news, I think, as we have seen in recent polls, is 
that the Taliban have not been winning hearts and minds in 
Afghanistan. Eighty percent of Afghans still view the Taliban 
as a serious threat. So the political space is still there for 
the Afghan Government, with the support of the international 
community, to turn things around.
    If President Obama's new comprehensive strategy is to 
succeed, all Afghans need to become equal partners with the 
international community and share the responsibility for 
implementing this new approach. Now, to do this they need a far 
greater stake in their future than they currently have. Too 
many decisions are currently being made on their behalf without 
their involvement.
    Even if the rhetoric that is espoused by the international 
civilians and soldiers in the country is all about 
Afghanization and building local capacity, and I am sure you 
have all heard it when you have been out there, the reality is 
that many donors bypass the government, they often duplicate 
efforts, and they focus on areas that may be a lower priority 
for Afghans. Often donors even say that they are informing the 
government before they launch into policies, and I think that 
word already tells you that they are not--the word ``informed'' 
tells you that they are not really treating them as partners.
    Now, these donors will argue--this includes the United 
States by the way--they will argue that they are forced to 
manage programs in this manner because of corruption and often 
to demonstrate a presence back home, where, for some countries, 
their presence in Afghanistan is not very popular. This is why 
more and more money goes to projects that are outside the 
national budget, and which often do not cohere with the 
national development strategy. According to the Ministry of 
Finance in Afghanistan, over 70 percent of donor funding goes 
outside of the national budget.
    Today, in Afghanistan, there is very little clarity as to 
what donors are doing and whether or not successes and failures 
in one part of the country are informing experience elsewhere. 
I certainly saw this when I was there a few months ago, and 2 
weeks ago I was chairing a panel on Afghanistan at a NATO/OECD 
summit in Geneva with senior members of the international 
community, military and civilians, and we definitely heard this 
again.
    Similar to our flawed policy in Iraq, in Afghanistan we are 
far too reliant on international contractors, as the chairman 
said earlier, and each of these takes a slice of the pie along 
the way. One study noted that three-quarters of U.S. 
development assistance in Afghanistan has gone to international 
contractors. One wonders what percentage of every dollar gets 
to the Afghan people.
    Even, I think, in our more recent attempts to buy locally--
we have heard a lot of people talk about buying locally and 
using local contracts--the U.S. Government is still using 
international contractors to do the buying on their behalf.
    Now, when I was there in late September, early October, I 
heard that there were 400 Americans in the U.S. Embassy. There 
is bound to be an increase due to the planned surge, and it 
seems to me that those Americans can go straight to the source 
and hire the Afghan contractors rather than go through a number 
of international contractors.
    Well, what else could be done? Our goal here should be to 
ensure that Afghans are fully in the lead. That means in 
building security, building the economy, reestablishing 
governance and rooting out corruption, as well as generating 
outrage and revulsion when the Taliban Afghans kill civilians.
    The International community really should be focusing on 
playing a catalatic facilitating and supporting role, and in 
many cases trying to mentor their government counterparts in 
different parts of the government at the national and local 
levels in a very similar way to what the international soldiers 
and police trainers are doing. They should be embedded in the 
government and spending most of their time working with their 
counterparts.
    But also I think our assistance needs to be much more 
direct and accountable. It needs to go straight to the people, 
and to successful government programs. As Mr. Ellison mentioned 
earlier, the National Solidarity Program is one great example. 
I think we should be far more supportive of the programs that 
are working.
    Now, of course, corruption is a problem. I think we all 
know that, and that is not just within the Afghan Government 
but it is also among international donors, and here perceived 
corruption can be just as bad as real corruption among 
international donors. Afghans hear about billions of dollars 
that is going into the country, but they often see little 
result that it is reaching the people.
    Now, I think corruption can be reduced through greater 
transparency over all the money that is pledged and spent by 
them and by us. We can call it two-way accountability, so that 
the Afghan people, as well as taxpayers in all of our 
countries, in all of the coalition countries, can see where 
their money is going. There are a number of ways to do this, 
through the media, through Web sites, and through other 
programs. We need to publish what we spend and monitor what we 
are spending.
    There are some great examples. The Aga Khan development 
network is already doing this up in the north of Afghanistan. 
They are working with the shuras and training them how to 
scrutinize books. They call them social audits. There are other 
programs like that that we could be supporting.
    Now, this new approach, I think, to aid effectiveness 
should be directed by the United Nations. The United Nations 
has been mandated to coordinate the international donor 
community in Afghanistan. It has not been able to realize its 
goals so far. Yet the United States needs to be far more 
supportive of U.N. efforts, and to help the U.N. become more 
robust. A more robust United Nations could be seen as part of 
our exit strategy, along with a stronger Afghan national 
security force.
    The President could also consider appointing a high level 
deputy to Ambassador Holbrooke to really be the development and 
accountability czar to make sure that the monies that are 
pledged and spent are accountable and are going more directly 
to the people, and this could also apply, of course, across the 
border in Pakistan if the $7.5 billion aid package over 5 years 
is approved.
    Finally, Afghans need to hear that the United States is 
totally committed to their welfare and security, and that we 
are not just concerned about the threat posed by al-Qaeda. Only 
when Afghans view the struggle as a common one, that they are 
not fighting America's war, will they become full partners. We 
have seen the negative effects of this already in Pakistan, 
where too many Pakistanis today see their own struggle against 
insurgents really is fighting America's war and not their own 
fight even though we have seen greater attacks within the 
country.
    So just to summarize, more direct aid, two-way public 
accountability, and a shared struggle with the Afghan people.
    Thank you for your time today and the privilege of 
appearing before this committee.
    [The prepared statement of Ms. von Hippel 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Dr. Jones.

  STATEMENT OF SETH G. JONES, PH.D., POLITICAL SCIENTIST, THE 
                        RAND CORPORATION

    Mr. Jones. Thank you very much, Mr. Chairman, and members 
of the subcommittee. I will keep my remarks brief. They are 
based on a range of trips to Afghanistan, in particular over 
the last several years; most recently at the end of 2008, and 
also in a few weeks I will be back.
    What I am going to argue in general, and I have got a range 
of different points I will make, but one argument that I would 
like to make is I think over the last several years there has 
been a focus of U.S. efforts and U.S. spending at a national 
level, and I think when one visits rural areas of Afghanistan 
the power is very localized. I will come back to that in a 
second, but I do think there is a much--there is a much more 
significant need to understand and then find ways to work with 
local officials. This came up in some members' comments as we 
began.
    My first comment builds a little bit on Dr. von Hippel's 
comments about the threat. In my view, there is a very 
significant and serious threat to the United States homeland 
from the Afghan-Pakistan front. U.S. intelligence is very clear 
about this. We have seen it even recently with individuals such 
ass Baitullah Meshud threatening and supporting terrorist 
attacks in Washington, DC. We heard that this week. We also are 
aware of Uzbek militant groups that have planned attacks in 
Europe. There have been arrests in Germany, in Denmark, in 
Spain and France. The threats to the United States homeland 
from this area and to its allies and to the Governments of 
Afghanistan and Pakistan, in my view, are extremely serious, 
and are supported by significant amounts of U.S. intelligence 
information along these lines. Therefore, the stakes, in my 
view, are very important.
    Second, I think in general that there is little 
understanding among many, certainly in reading press accounts, 
of what is actually going on on the ground. There is continuing 
over-simplification of this as a Taliban fight, talks with 
Taliban. In fact, when one gets into rural areas of the 
country, the situation is much more complicated. There are a 
range of militant groups operating in these areas, not just the 
Taliban. There are a range of sub-tribes, tribes, clans, mostly 
Pashtun involved, criminal organizations, not even just drug 
trafficking organizations, but timber traders, gem traders. 
There are state support as we know, not just from Pakistan and 
Iran, but also even from, we know from Afghan national police 
in some cases, as well as Afghan district officials.
    So, in general, we are talking about a very complicated 
insurgency that is not just a Taliban insurgency by any means, 
and where motivations range from at senior levels of the 
Taliban Intersura, a Deobandi ideology, to financial 
motivations, tribal motivations, grievances against the Afghan 
Government, a range of motivations as one looks across this.
    The point though is that, in my view, important chunks, the 
motivation for fighting the Afghan Government, the Americans 
and others is very locally based, and that is important to 
realize because it means, in my view, that the solutions are 
not just about a central government; they are also about 
working with and understanding local dimensions. So my 
comments, very briefly, are going to talk about thinking more 
concretely about bottom-up rather than entirely about top-down, 
which is where we have focused.
    In particular, I would argue this is either won or lost in 
areas of the south in particular, but also to some degree the 
east of Afghanistan. The south, of course, is where our U.S. 
second marine expedientary force, the U.S. Marines are moving 
into, especially Helmand, in particular, and this is quite 
important.
    Now, on force structure, as we talk about a bottom-up, I 
want to point out if one takes General Petraeus's rough numbers 
of how many forces are needed to win a counterinsurgency, and 
this is a--take these numbers with an important grain of salt--
one of the suggestions that comes out of the field manual is 20 
counterinsurgents per 1,000 inhabitants.
    Well, if one looks at the areas where most of the 
insurgency is focused on in Afghanistan, the provinces from 
Heart south to Kandahar and Helmand, and up through most of the 
eastern provinces, that leads to a population of just under 14 
million, if we take those force requirements what that gives us 
is an--and I take these as rough numbers--a force requirement 
of 271,000 forces.
    But this still leaves us with a range of questions: What 
percentage of these forces should be international? Which 
should be Afghan? Among Afghan forces, which should be 
national, that is, army or police in these areas? Which ones 
should be local forces? And we have even on the local front a 
range of options from the Afghan Public Protection Program in 
Wardak to more traditional ``lashkars'' and ``arbakai.''
    So the argument here is there is no magic number for 
numbers, and there is a lot of desire to see numbers, but I 
would say over 7 years into this counterinsurgency in 
Afghanistan the United States clock is clearly ticking. In my 
view, ultimately this is not just going to be about building 
Afghan national capacity. In my view, this is also going to be 
about building local capacity at the sub-national level 
including finding ways to work with key sub-tribes, some of 
which we know are sitting on the fence. The Alikozai and the 
Achakzai are probably the premier examples in the south; 
finding ways.
    And what I am really talking about, without going into 
details yet, is I think an important component of this is a 
much more sophisticated understanding from the United States of 
local power, and frankly, rather than large numbers of American 
forces, a much more significant focus on covert action and 
clandestine operations in rural areas to work with local entity 
because, again, I think we have seen public opinion polls in 
rural areas of U.S. forces have deteriorated over the past 
year. I think this means a greater emphasis, as the U.S. did in 
2001, in spending more time thinking about covert/clandestine 
operations rather than entirely on overt/large numbers of 
military forces.
    So there are a whole range of other issues that came up 
during the questions on reconciliation, Pakistan human rights 
that I would be happy to address as I know the rest of us 
would. But I would just leave one with this thought: The war in 
Afghanistan is now longer than--has how occurred longer than 
World War II. We are on seven, now going on 8 years in 
Afghanistan. In my view, we have already seen public perception 
and support begin to decrease. I think that is probably likely 
to continue. So I would suggest thinking a little bit more 
creatively about how to take advantage of a range of issues at 
the very local level in Afghanistan.
    Thank you very much.
    [The prepared statement of Mr. Jones follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you, Dr. Jones. Dr. Cordesman.

  STATEMENT OF ANTHONY H. CORDESMAN, PH.D., ARLEIGH A. BURKE 
CHAIR IN STRATEGY, CENTER FOR STRATEGIC & INTERNATIONAL STUDIES

    Mr. Cordesman. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you for your patience.
    Mr. Cordesman. Well, thank you, and thank members of the 
committee for the opportunity to testify. I am not going to try 
to recap my testimony, but there are a couple of key points I 
would like to make in introduction.
    We are not in a state of stalemate; we are losing this war. 
We are not losing it simply because of the kinetic events, the 
military outcome, although frankly we have seen a 30-50 percent 
rise in casualty incidents in the course of this last year. We 
are losing it for reasons we do not map very well. We are 
seeing a steady increase in the expansion of Taliban, Haqqani 
and Hekmatyar influence. These measured in public opinion polls 
in the areas where they operate indicate they are not having 
the kind of unpopularity they had in the past, and a lot of 
this is occurring because we do not have the presence there.
    One problem we have we do not have good intelligence on 
this increase in influence. We do not have the ability to map 
Afghan on Afghan violence. We describe these areas often as 
support areas because there are not combat going on in them, 
and as a result many of our assessments badly understate what 
is happening in Afghanistan, and add to this the fact we de-
couple the analysis of Afghanistan from what is happening in 
Pakistan.
    I say this because we have essentially probably 2 years in 
which to reverse this, and in which we have to focus 
essentially on war fighting. Development, human rights, all of 
these things have to be done, but to do them with limited 
resources simultaneously with the combat load we face is not 
something that is practical.
    I believe that President Obama has outlined a concept that 
may well work, and has begun to allocate resources that may 
succeed. The fact is, however, that the people who worked on 
this would be the first to admit we do not yet have a strategy, 
a plan, a budget, for using these resources in detail, and we 
will not for several months. That is not an indictment to come 
into office in a losing war, it is not something where you can 
instantly develop the kinds of plans and detail you need to 
win.
    We now at this point have a plan which will build us up 
from what used to be 32,000 troops in NATO/ISAF to more than 
70,000. We do not know exactly where they will go. We do not 
know how they will be allocated to try to achieve a strategy 
which is now clear hold/build. We do not know how many will 
have to be used in aid functions, but many will. We do not know 
how many of the so-called trainers will have to stay embedded, 
but there will have to be a team with every single Afghan 
battalion for at least several years. We do not yet have a 
clear credible plan for building up Afghan forces. Our police 
efforts have been largely unsuccessful over the last 7 years.
    We have some hope in what is called the Focus District 
Development Plan, but it is far from clear that is working.
    Only about 15 percent of the Afghan army units are yet able 
to achieve the highest level of readiness. They will move 
forward, but it will be several years before this happens.
    I have to say I would join with what Dr. von Hippel said, 
but I would make a stronger point about aid and echo what the 
Secretary of State has said. We have seen a nightmare in the 
U.S. administration of aid. There has been no real coordination 
between USAID, the State Department, and the Corps of 
Engineers. We cannot tie what they have said to meaningful 
measures of effectiveness. It has not been related to the war. 
We do not have meaningful accounting systems, and no one ties 
this together. That aid is critical, initially for war 
fighting, and then for effective action.
    I have to say that I do not believe that the United Nations 
is efficient or any less corrupt or disorganized than we are. 
It has no audits. It cannot demonstrate what it has done, and 
the same is true of far too much of our aid activity. To win we 
have to change that.
    But I think the most critical dimension we may really face 
is Pakistan, and I think that as we proceed during this hearing 
we need to look much harder at what is happening there because 
of all of the things that people were working on in the 
strategy exercises the highest single risk was trying to get 
Pakistan to cooperate, and here I have to say one of the 
problems that we grossly understate is the extent to which this 
is not a problem in the Fatah area or the Baluki area, but a 
national problem inside Pakistan.
    We are not just talking about the movements that I have 
identified, we are talking about Deobandi movements which 
exists throughout Pakistan. The best unclassified study I have 
seen of this is by the Crisis Group. There are other studies by 
Pakistani groups. But if we cannot motivate the Pakistani army, 
if we cannot develop an effective presence in terms of 
Pakistani governance, if we cannot change the map of what is 
happening there, I think most people would say we cannot win in 
Afghanistan. So we either have one strategy with very clear, 
detailed plans, which the Congress insists on monitoring, in 
seeing in terms of facts on the ground, not concepts, or we are 
gong to spend the next 2 years probably wasting resources when 
we could win.
    Thank you.
    [The prepared statement of Mr. Cordesman 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Well, thank you. Thank the whole panel. I 
think it is some of the most interesting testimony we have had 
in quite awhile.
    Let me start on a comment first by Dr. Jones when he 
mentioned that the war in Afghanistan is going on longer than 
the war we had in World War II. It is interesting, but I would 
also observe that in World War II in each of the countries with 
whom we were at war we only needed one guy to surrender. I 
think here we have a very complicated circumstance of who 
surrenders. We are not talking about the national leadership, 
to whatever extent that exists seriously in either Afghanistan 
or Pakistan, but somebody else has to surrender, and I do not 
know that we could identify one person or 10 people that if 
those 10 people surrendered that this deal would not still be 
going on into the unforeseeable future.
    I guess the first question I would ask is based the idea 
that we are really not in national wars. We are in wars with 
entities, groups of people, and varying interests. I guess the 
first question I would ask is what is commonly called the 
insurgency, what is the insurgency?
    America's overriding interest here is to protect our 
national security, and some of that insurgency is not 
necessarily in and of itself a threat to American security, but 
if they are all combined up somehow, and allied up, then that 
becomes a force multiplier in the threat that we face, and we 
are talking not about just the borders of Afghanistan. But I 
congratulated by the way--I hope I am making a connection 
here--I congratulated the outgoing Ambassador of India on 
finally becoming de-hyphenated. He had one half of a hyphenated 
problem, and now I think we have come to all realize that the 
major problem here is Afghan-Pakistan, and that is the new 
hyphenated problem, and I think you are right, Dr. Cordesman. 
It is like love and marriage, you cannot have one without the 
other. Well, you cannot--well, maybe you can, I do not want to 
get into that fight with any of my colleagues. But certainly 
you cannot solve one problem with one of these countries 
without solving both problems, because it is not a problem of 
the traditional nature when it comes to war.
    How much of the insurgency is what we would call terrorist 
as opposed to what we would call the guys who are fighting for 
this, that, and the other thing, and the real threat is when 
they all hook up and feed each other's needs and interests, and 
feed off of each other that all the insurgency becomes 
terrorist? Is that the real threat that we are facing? And how 
many of the people involved percentage-wise are ideologically 
based other than in it for whatever they are in it for, these 
miscreants of various tribes?
    Start with anybody who raises their hand first. Dr. 
Cordesman.
    Mr. Cordesman. I think we need to be very honest. We really 
have not done a competent job of measuring motivation. We have 
not really mapped out the networks and the informal structures 
because these are not formal that tie together many of these 
movements. And when you talk to people, as I am sure members of 
the committee have in the intelligence community, you get very 
different views, and I think there is a clear recognition that 
much more needs to be done to fully understand this.
    But having said that, I think the word ``terror'' is very 
dangerous. Insurgents always use terror. The Maoists did it, 
the Vietnamese, the Vietcong did it. The Vietnamese main force 
divisions had organized elements during the Vietnam War dealing 
with this.
    Mr. Ackerman. If I may just rephrase that, and I think you 
are absolutely right. There are two different brands of 
terrorism that we have looked at historically. One is the 
traditional terrorism where people terrorize their own people 
for whatever power motives that they have, and the kind of 
terrorism that we are looking at currently, which are 
ideological movements that look to internationalize their 
problems that go beyond national, traditional national borders.
    Mr. Cordesman. Well, let me just very briefly, because I 
know that Seth has a lot to say in this area too, I think what 
you have seen is a very steady increase in al-Qaeda influence 
in the East with much closer ties to the two main groupings of 
the Taliban there, to the Hekmatyar and the Haqqani network; 
that you have seen a similar expansion of ties to the various 
Deomandi groups. Those Deomandi groups play a major role in 
international terrorism already in Europe, in India, and other 
places.
    So what we are really saying is if we have a power vacuum 
of any kind in Afghanistan or Pakistan you will see, I think, a 
steady expansion of international terrorist activity even 
though these movements in the past have largely been 
nationalist and more focused on their internal goals.
    Mr. Ackerman. Dr. Jones.
    Mr. Jones. Sure. It is a very, very important question. In 
my personal view, just starting from al-Qaeda, what al-Qaeda 
has done, I think fairly effectively, is embedded itself in an 
area, as Tony mentioned earlier in the testimony, not just in 
the tribal areas or in Baluchistan, but also in a range of 
other places. Al-Qaeda has embedded itself in a range of 
militant groups; mostly Sunni, mostly Deobandi. So we know, for 
example, among Afghan insurgents we know al-Qaeda connections, 
regular connections, meetings, assistance to Haqqani network, 
to Mullah, Mohammed Omar's Taliban organization. So we know 
that there is--so what that broader series of militant groups 
does, it provides an operating environment for al-Qaeda in a 
range of areas which poses a threat to us. Again, it is not 
just al-Qaeda as we have seen with the range of countries too. 
There are some Uzbek militant groups, the IMU, for example; 
Tohir Yuldeshev, that have posed a direct threat to a range of 
United States allied countries, in Germany and Denmark and 
other places.
    Now, just to be clear about this, when we talk about these 
range of groups, including al-Qaeda, which really does not play 
a major role in the actual fighting in Afghanistan, its role is 
primarily to help. If you remember the German pharmaceutical 
company ran a series of ads, BASF, a few years ago. We do not 
make a lot of the products you buy; we make a lot of the 
products you buy better. That is al-Qaeda's modus operandi. 
They have improved suicide attacks information operations for 
the Afghan groups.
    But what we see as we look across these groups, I would say 
just in concluding, is that we see a lot of different interests 
across them, and some of them have clearly fought against each 
other historically. We have seen Hekmatyar and the Taliban 
fight, a lot of the 1990s they fought each other until 
Hekmatyar had to flee from Afghanistan. So we have seen a range 
of fissures historically against some of these groups, and even 
some of the sub-tribes that are supporting elements of the 
Taliban we have seen actually fight each other historically. So 
by no means is this a unified movement: Variations in scope, 
how much they are interested in a global jihad; some are 
interested primarily in parochial things. But again I do think 
it is important, as Tony mentioned earlier, just to understand 
who we are dealing with, what their interests are, what they 
are motivated by, and how they are cooperating or not with each 
other.
    Ms. von Hippel. Could I just add one final point to 
reinforce my colleagues'?
    Dennis Blair recently said that the United States still 
lacks intelligence about the power structures inside 
Afghanistan and the same certainly applies on the Pakistan side 
of the border. The Pakistani officials do not know fully who is 
operating in their country. You can get a range of figures from 
800 foreigners to 8,000 foreigners, and so really we are 
lacking knowledge on both sides of the border. We are not 
nearly where we should be.
    Mr. Ackerman. Thank you. My time is up. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
am sorry I was a little late. I have another hearing after 
this, and I actually had to have a little bite to eat some time 
today, so I grabbed a quick bite before I came back.
    Let me just note again, as I stated as we opened this 
hearing, that I am deeply concerned that the strategy that we 
are talking about is not a strategy, and that instead we have a 
series of ideas and many of the ideas that I have heard will 
not work. And when we talk about a regional solution, which has 
become, you know the watch word, we are going to have a 
regional solution, it appears to me what we are really talking 
about here is a willingness of our leadership in the United 
States to try to cut deals with political leaders who are not 
in Afghanistan, foreigners, foreign political leaders, and 
expecting the people of Afghanistan to go along with it.
    The people of Afghanistan, and we can make any deals we 
want with the people of Pakistan, with the leadership in 
Pakistan, or the leadership in various countries, Iran, et 
cetera, but when you get right down to the village and the 
provincial level in Afghanistan, they will not follow the 
orders and obey the deals and agree with the deals that we cut 
unless, of course, they are part of the decision-making process 
and they are included.
    Mr. Chairman, I need to answer these--let me just ask the 
panel this question, and again everybody keeps talking about 
bottom-up, nobody is willing to really give me a strategy with 
bottoms-up. Is this administration willing to permit from what 
has been said for local people to elect their own people who 
govern them at the local level, a the district level, at the 
provincial level, or is this administration, as what I have 
heard in the last few days, insisting that these be appointed 
from Kabul?
    And how do we expect to enlist the people at the local or 
the tribal leaders and the other community leaders that exist 
and have militias at their disposal unless we are willing to 
have faith that through elections local people will make the 
right decisions?
    So are we going to permit local people to elect their 
people or are we going to insist that they just have to accept 
appointed people from Kabul?
    Mr. Cordesman. May I suggest, and I am sure each member of 
the panel will have a comment, I do not believe that you can 
hold local or provincial elections in the most threatened 
provinces at this point in time. The fact is that our PRTs, the 
troop strength we have, can only hold an extraordinarily 
limited area.
    Mr. Rohrabacher. Okay. Well, you have----
    Mr. Cordesman. The number of killing----
    Mr. Rohrabacher. Before you go on, the caveat was in those 
areas, in specific areas. Let me note there are huge areas of 
Afghanistan where you can basically create the type of 
stability and strength that may give us leverage on the areas 
that you are talking about, but instead if we insist on corrupt 
officials being accepted at the provincial level there just 
because down in Kandahar there is too much chaos to have an 
election, then we have cut ourselves off from that option, have 
we not?
    Mr. Cordesman. Well, let me say that I think that one of 
the rules that was not followed by the Bush administration but 
virtually everyone in the nation-building field would say, you 
do being with local and provincial elections. Your problem now 
is you have created levels of infiltration and violence which 
go far beyond this limited number of districts.
    Mr. Rohrabacher. Sure. Sure.
    Mr. Cordesman. And holding an election would be extremely 
difficult, but if I may, I think in fairness I do not believe 
the people developing this strategy put heavy emphasis on the 
regional approach. They will attempt it but they did not 
believe it would succeed. I think they saw, with the exception 
of Pakistan, three key elements: One was building up Afghan 
forces, a process which will take a least 2 years; another was 
to reenforce the United States and allied presence to the point 
where you can shift to a win/hold/build tactics and strategy in 
the most threatened area, bringing in aid workers to provide 
the build capability and focusing----
    Mr. Rohrabacher. You know, I have only got a couple of 
minutes, and so I am sorry that I----
    Mr. Cordesman. All right, could I----
    Mr. Rohrabacher. There are a couple of points that I want 
to make sure I get on the record in this hearing. Number one, 
from what I see we are not going--as has been confirmed--we are 
not going to have provisional and local leaders elected, thus 
we will then, of course, have them cooped by--because we have 
put them outside the circle--we are going to have corrupt 
officials being appointed by Kabul instead. The militias, here 
we are building up a national force so that we can pacify an 
area, that sounds really familiar does it not? It does not 
work. Everyone of these areas have local militias.
    When we drove the Taliban out of Afghanistan, it was not 
us, it were the local militias of the Northern Alliance that 
drove the Taliban out in the first place, and I might add 
defeated the Soviet Union. The plan of building up a 
centralized force will not work unless it includes the local 
militias. Are the local militias included in some sort of 
national guard thing? I do not see that.
    One last element, and I have got to--again, I have only a 
short period of time--put these thoughts on the record.
    Mr. Chairman, this is being fueled, the money that we are 
talking about that finances these radical groups in Pakistan 
and in Afghanistan, it is oil money from our good buddies 
elsewhere in the Arab world, and it is the poppies, and again 
the briefings that I have had on this plan deemphasizes--let me 
repeat that--deemphasizes poppy eradication, and we have an 
option with a micro-herbicide to eliminate those poppies, and 
to come forward with a bold, very expensive operation to build 
their economy. That is the only thing that is going to work as 
far as I can see. It is not included anywhere in the plan, and 
a micro-herbicide needs to be addressed, and I will just throw 
that out. Thank you, Mr. Chairman.
    Mr. Ackerman. The gentleman is a minute-and-half or so 
over, but if there is no objection, I would like to restore an 
additional 2 minutes to the gentleman, and ask if he would 
yield to me to make a point.
    Mr. Rohrabacher. Certainly.
    Mr. Ackerman. And I hope to leave enough time for you to 
respond to it as well.
    In addition to the President's speech, which we listened 
to, which was indeed a speech, you do not get everything in a 
speech, there was an accompanying white paper which probably 
comes a lot closer to talking about what we would consider 
strategy, and within that I would just point out, I would hope 
a wider level of comfort and the rest of us as well, there is a 
small section that says ``including provincial and local 
governments in our capacity-building efforts'' and it very 
briefly reads what you would have written for the President, I 
would think.
    Mr. Rohrabacher. Does it include elections?
    Mr. Ackerman. ``We need to work with the Afghan Government 
to refocus civilian assistance and capacity-building programs 
on building up competent provincial local governments where 
they can more directly serve the people and connect them to 
their governments.'' It does not specifically say ``elections'' 
but I think that is more what it is pointing at than not, 
working with the local governments. So I just offer that----
    Mr. Rohrabacher. Mr. Chairman, if I could note, it does not 
say ``elections'' because there will not be. We are going to 
make the same mistake we made in Vietnam where we send the 
powers in from the capitol, and we expect them not to be 
corrupt, and they will always be corrupt. For the center core 
in these developing countries, when you send them out to take 
charge of the countryside, they end up turning people off. 
Without local elections, the local people feel desperate and 
alienated from the system. So I hope that the President----
    Mr. Ackerman. I do not want to divert from our----
    Mr. Rohrabacher. Yes.
    Mr. Ackerman [continuing]. Panel, and engage in a debate 
with my knowledgeable, learned and distinguished colleague who 
has probably been to the region more than the rest of us 
probably combined. The fact of the matter is elections are not 
necessarily the cure-all, and does not mean that you have 
democracy. Witness Hezbollah's victories in Lebanon and Hamas's 
victories in Gaza, and the National Socialist Party in Germany. 
You do not always get what you want. It does not always mean 
you have an ideal democratic society.
    But let us work together on that with the administration 
and use the tools that we have here, and I would, with the 
tolerance of the rest of the committee, and Mr. Ellison, who 
would be next, just ask if the rest of our panel just wanted to 
respond to that, and then we will turn to Mr. Ellison, if that 
is okay with Mr. Ellison.
    Mr. Ellison. Certainly, I will be happy to defer to the 
chair.
    Mr. Ackerman. Thank you, and you will have your full time, 
as much as you need.
    Dr. von Hippel first.
    Ms. von Hippel. Just two quick points. First of all, it is 
a sovereign state obviously, Afghanistan is a sovereign state. 
They have a highly centralized form of government that may not 
be appropriate, as you are saying, to their very fragmented 
society, but that is what they have agreed on during the Bonn 
process. That is the constitution they agreed on. Now----
    Mr. Rohrabacher. We ran the Bonn process.
    Ms. von Hippel. But that does not mean----
    Mr. Ackerman. Let her finish.
    Ms. von Hippel. That does not mean that there is not a 
degree of--a lot of local involvement at a number of different 
levels through the National Solidarity Program, through this 
program I mentioned earlier that the Aga Kahn network, they are 
working with shuras, and the shura can vote out the people who 
are in charge of certain projects. So there are a number of 
ways at the local level where local Afghans are voting out 
people who are implementing projects, shura, et cetera. So it 
is not to say that there is not a democracy there.
    On the regional point, just one quick point I wanted to 
make is that India, Iran, Russia, and China all have motivation 
to prevent the Taliban from returning to power. Drugs hit them 
far more than they hit us, so we do have common cause with 
them, and we can work together as you were saying earlier in 
closer partnerships to make sure that this happens.
    Mr. Ackerman. Dr. Jones.
    Mr. Jones. Yes, just two brief comments, and I support the 
direction of Mr. Rohrabacher's comments on local, a focus on 
local power because I think in visiting numerous times rural 
areas of the south and east, in particular, we actually, 
interestingly, there are several bottom-up models. One of them 
is the one the United States used in 2001, again not just 
Northern Alliance in the north, but also U.S. intelligence and 
special forces operating in the south, working with Pupelsei 
tribes, or the sub-tribe, for example, in Kandahar, the 
Baraksai, and a range of others, recognizing the inherent local 
dimension of power.
    One also has to realize that the Taliban strategy, campaign 
planning and tactics, techniques and procedures in areas they 
operate, especially in the south, is a bottom-up strategy. We 
have pursued a top-down strategy. They have pursued a bottom-up 
strategy. I would argue that has been more effective in rural 
areas of the country than ours has been. They approach a range 
of tribe and sub-tribes and clans. I think what will be 
interesting along these lines is monitoring U.S. efforts in 
Wardak province whereas now the first effort to try to put 
together a bottom-up strategy.
    The other thing that I would note very briefly when we talk 
about democracy, in Pashtun areas of the country--again the 
primary areas where the insurgency is happening--we do have 
government-appointed district shuras--sorry--district governors 
and provincial governors, but we also what you might call the 
Pashtun version of democracy which is the jerga or the shura at 
the village level and at the district level, and these are 
their sub-tribal/clan representatives.
    So I would say in addition to thinking about elections, 
although as Tony noted earlier, in an insecure environment 
there may be problems, there is a form of Pashtun democracy. 
That is what is called the shura or the jerga, and in my 
personal view we have not successfully managed, (A) to 
understand; and (B) to work with that portion of Pashtun 
society that is somewhat democratic.
    Mr. Ackerman. If I could just ask a question on that. Is it 
we that have to learn how to work with them or the Afghan 
Government?
    Mr. Jones. Well, I mean, ``we'' collectively. I mean the 
Afghan Government and the United States. If you look at 2001, 
this was a combination of locals and U.S., so I think it is 
both actually.
    Mr. Cordesman. Could I make a brief comment, Mr. Chairman? 
I think that there are over 360 districts in Afghanistan. At 
this point in time you could not under U.N. rules hold a local 
or provincial election in more than half of them, and that is 
because of the map of insecurity of the area. I think the key, 
as Seth has pointed out, is to take the local authorities, 
provide security, provide build assets, and build from the 
bottom up. I think that is one of the key goals of this 
strategy, is it bring enough aid workers, enough people in 
EPRTs, and work with local people after you have established 
security to begin to build up local authorities, local 
loyalties.
    One of the ideas people are looking at is some kind of 
variation on what we had in Vietnam by way of local security 
forces, but the truth is that as yet we do not have this by way 
of a detailed plan, and given the number of U.S. troops we 
intend to deploy, this will only affect the most critical 
districts at best during the course of 2009, and early 2010.
    Mr. Ackerman. Thank you. Mr. Ellison.
    Mr. Ellison. Thank you, Mr. Chair.
    Picking up on the prior theme, I wonder if you all would 
offer your views on how well the United States, and at this 
point I am not really talking about the Afghan central 
government so much, but I am talking about things under our 
control, how well the United States can integrate a local/
national type strategy because it does seem, based on 
everything I have heard today as well as Mr. Rohrabacher's 
comments and the chairman's comments, that the action is at the 
local level, but there is no way we can simply ignore the 
national level. How well can these efforts be integrated for 
maximum United States security and Afghan stabilization? Mr. 
Jones, maybe you can start.
    Mr. Jones. Sure. Just to briefly respond, I would like to 
use an example. An area that I have been to a number of times 
is the Asadabad area in Konar Province, and I think where the 
U.S. has been effective along these lines is the PRT in Konar 
has done under a range of different navy commanders actually 
who have backgrounds in general in commanding ships, is to work 
both with the provincial and the district governors in Konar. 
This is, the provincial governor is Governor Wahidi. And then 
in key areas, to sit down at the village level and the district 
level with the shuras to understand what are the primary needs. 
So I will give you one example.
    There is a lot of agricultural activity in Konar. There 
have been some problems in getting goods to market because it 
is a mountainous area. So one of the issues that was identified 
for locals is road construction for a very specific economic 
purpose, to get goods to Asadabad. So what the PRT did under a 
range of different people, including Commander Larry Legree, 
sit down with a range of villages along the routes, see if this 
was something they wanted, and employ their villagers in the 
construction as it went though their area. That gave them, (A) 
stake involved in planning it, stake involved in actually doing 
it, and stake involved in actually protecting the road.
    So I think where we have done it effectively, that kind of 
model has actually been very useful, and again there was input 
from the Afghan Government level.
    Mr. Ellison. Dr. Jones, is there a document out there that 
perhaps we could put into the record or share around to 
colleagues describing this effort?
    Mr. Jones. I do not believe it has been written up 
anywhere, which is quite sad.
    Mr. Ellison. Would you mind volunteering for that effort?
    Mr. Jones. Sure.
    Mr. Ellison. Thank you. I mean, I am serious. It really 
would be helpful if you could sort of describe that. You know, 
we are looking for ways forward, and I think one of the 
problems is that no on really knows exactly what to do, and so 
we are all trying to--we are looking for that collectively, and 
it is not necessarily that elegant or pretty.
    I also would like unanimous consent to put an article into 
the record. This is a document prepared by the United States 
Institute of Peace, and it is entitled ``Killing Friends, 
Making Enemies: The Impact and Avoidance of Civilian Casualties 
in Afghanistan.''
    Mr. Ackerman. Without objection, so ordered.
    [The information referred to follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ellison. Are you all familiar with this document? You 
know, could you all talk for a moment, perhaps Dr. Cordesman, a 
little bit about what it means when we, in an effort to 
eradicate a violent, hostile person, do that perhaps but also 
kill a whole lot of other people like wedding parties and stuff 
like that? What does it mean? What is the impact of it?
    Mr. Cordesman. First, with all due respect, I think that 
report needs to be taken with a great deal of reservation.
    Mr. Ackerman. So ordered.
    Mr. Cordesman. I think what we have seen--Dr. Jones pointed 
out--where we have been able to put together PRTs and troops 
that provide security, where we win kinetically and defeat the 
enemy, and then provide security rather than go in and fight 
again and again with civilian casualties and losses and 
alienation, when we bring in jobs and we bring in some kind of 
aid----
    Mr. Ellison. I am sorry, Dr. Cordesman.
    Mr. Cordesman [continuing]. That works, those kind of----
    Mr. Ellison. Dr. Cordesman, I do control the time.
    Mr. Cordesman. All right.
    Mr. Ellison. And I want to thank you for your----
    Mr. Cordesman. Sorry.
    Mr. Ellison [continuing]. Explanation, and I appreciate it, 
but I mean, I have heard you say what you seem to be saying, 
and I am listening to you carefully, but I would like to just 
get something on the record, if somebody would, about what the 
casualties mean. What are they doing? And I am going to go to 
Dr. von Hippel because I think she may be more interested in 
answering that question. Thank you.
    Ms. von Hippel. Sure. The civilian casualties are very 
divisive. It is one of the most important issues that Karzai 
raises time and again with the U.S. Government. Now, we have 
made great efforts to reduce civilian casualties on the Afghan 
side of the border. On the Pakistan side of the border we are 
not doing as much, especially because the drone strikes are 
killing civilians. But we are not fully admitting that we are 
doing it on the Pakistan side of the border. We do need to 
reduce civilian casualties. We need to protect the population. 
That is the whole point of counterinsurgency.
    Mr. Ellison. Yes, Dr. Jones.
    Mr. Jones. Just to put some cultural component in this, in 
Pashtunwali society killing a civilian is met by revenge. It is 
a core tenet of Pashtunwali society. So from a cultural 
standpoint, civilian casualties by nature need to be met with 
revenge. So that is the kind of cultural mindset that we fall 
into, and frankly, the Taliban too during their suicide 
attacks, they run into the same issue, but there is a cultural 
dimension that is important to understand.
    Mr. Ellison. And if I may, I am running out of time, but I 
was reading as I was trying to form my own views on this, or 
reform them, I ran into some material about what The 
Netherlands was doing in Uruzgan, and again you all have 
information way above my head, and so I am not trying to 
compete with what you know and what I know because you would 
win that one, but could you talk about--I read about the Dutch 
effort in Uruzgan, that they have not had any troop increases, 
and they have had quite a bit of success and stabilization. 
Could you offer your views on how the Dutch are doing, if there 
is anything they are doing that we might look at, Mr. Jones? 
Dr. Jones, excuse me. I know you worked hard for that Ph.D.
    Mr. Jones. I would just point out in a range of polling 
data there are notable security concerns among Afghans in 
Uruzgan province, so both the Dutch and the Australians who are 
there, I would say there still has been a problem in 
understanding and working with local entities in Uruzgan. So I 
think the Dutch have faced the same problem that the British 
have had and the Canadians have had in the south, which is 
working with local entities.
    I do not believe the Dutch have succeeded in stabilizing 
Uruzgan by any means.
    Mr. Ellison. I will get to everybody.
    Mr. Ackerman. What I will do because I want to make sure 
everybody gets in because I know everybody has other things. I 
am going to come back for another round if it is okay with the 
panel. It will be a brief round.
    Okay, Mr. Ellison? Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.
    As sort of a follow up to that, I guess I should point out 
that having been to Afghanistan twice I sure am impressed by 
the work that our armed forces are doing there; incredible 
people doing what we ask them to do, and they really are 
impressive folks.
    I am also impressed by how difficult a place Afghanistan 
is. A friend who served in Iraq was talking to me recently 
about comparing Iraq to Afghanistan in terms of the long-term 
prospects, and he pointed out Iraq has water and the ability to 
really feed much of the Middle East if they had peace and 
stability, and an economy that would work, surely starting with 
agriculture and going into many other things.
    The challenge in Afghanistan has a lot to do, it seems to 
me, with just the geography of the place. Very little water, 
very remote mountain passes. It is just sort of lends itself to 
small fiefdoms and not a unified governing structure, and it 
sort of makes it natural as to why people would be involved in 
illegal drug trade, because what else are you going to do in a 
mountain pass that if you can divert some water to it, pretty 
soon the salt has built up and now you have got to move onto 
another patch of ground. So you have got to have a pretty high-
value crop or high-dollar crop in order to make agriculture 
work.
    So, comparing those two give me some reason for hope, that 
there is a way to unify that country and not have the 
experience the Soviets have had there of eventually the 
warlords winning. Anybody got any hope for me there about how 
you deal with the very difficult geographic features of 
Afghanistan?
    Mr. Cordesman. If you look at eastern Afghanistan, and 
understand how few troops NATO/ISAF has had, and how few aid 
workers there have actually been in the field, because out of 
our PRTs we have 1,000 military and less than 40 civilians, you 
see often in the east where we were able to provide sort of a 
critical mass of troops and aid workers, where we did provide 
security and aid as well as troops, we won once rather than 
constantly inflicting new civilian casualties. There we had 
significant success.
    We have never had that in the south because we have never 
had the resources. We have never had it in parts of the east 
because when you look at the numbers, and it is hard to 
remember this, through 2005 all of NATO and the U.S. had less 
than 10,000 troops actually present in the area. Even today we 
are talking about 47,000 to 56,000, because a lot of those 
forces are not really deployed, and many are held up in 
national caveats.
    So now we are talking about putting in enough aid workers, 
putting in enough troops, building up Afghan forces while we 
build up governance at the local level, and if we can take the 
examples we have had in the east and move them to the south, 
then, as the strategy I believe calls for, we have some chance 
of success. But the people I know who helped formulate this 
would say it will be a close run thing. Nobody can guarantee 
that the current plan will win, but there is a reasonable 
chance it will provide that level of security and stability.
    Mr. Inglis. Anybody else going to----
    Mr. Jones. Yes, if I can just comment. There is hope. I 
mean, there are--I think part of what we need to do is look at 
the periods in Afghanistan's history where it has been stable.
    Now, a lot has changed, a lot had changed during the Soviet 
period, during the civil war, then early 1990s during the 
Taliban years, but one thing I would submit has historically 
been true, when stability has occurred in Afghanistan, for 
example, between 1933 and 1973, during the Sahir Shah period, 
you had a central government that could establish order and 
deliver services in urban areas of the country and along key 
roads, and sub-tribes, clans that did it in rural areas and 
some ability of cooperation between those two, but you never 
had a strong central governmental that could establish order in 
rural areas.
    Ms. von Hippel. Yes, if I could just add to that. You are 
absolutely right; we are dealing with extraordinary challenges. 
We are doing development aid while we are getting shot at. We 
are doing development aid in places where literacy rates for 
police officers and judges is maybe 10 percent, and so these 
are enormous challenges. But I would agree with Seth and Tony 
that if we can provide basic services, if we can protect the 
people, and help them build justice and the rule of law at the 
local level, we do not need to worry as much about building a 
strong center. They will be very happy going about their lives 
at the local level with some--you know, with less corruption at 
the center.
    Mr. Inglis. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. The chair would announce that we 
have to abandon the premises at 1:30, so we will go around the 
whole room again if we can each do 3 minutes, if that would be 
all right, if we could try to stick to that. We will run the 
clocks at 3 minutes, and if you get your stuff in in 3 minutes, 
it would be great.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    I know in my opening statement and it is frustrating 
because whatever happens in the Presidential race in 
Afghanistan the United States is going to be blamed for. If we 
support President Karzai with all the problems of his 
administration, then we will be blamed for imposing him. But if 
there is someone else that could actually do a better job, 
obviously he has not united the country as we have heard from 
previous questioning because it is a country that is difficult 
to be united because of the diverse area, but we do have 
examples of very diverse area around the world who do come 
under a national government, be it maybe a more loose 
federation than what we expect.
    I guess my question is, you know, the corruption issues, 
and the Afghans refusing to cooperate with United States-led 
forces, is there someone else other than President Karzai that 
could do a better job that the Afghan people can turn to 
whether we like it or not? And that will be my first question, 
I guess, if I have time in the 3 minutes.
    Mr. Cordesman. Let me answer that very quickly because I 
watched people try to bring down Diam with all the success that 
had. If we knew that person, they would know his name and he 
would be running with great popularity. If they do not know the 
name, it does not really exist.
    Mr. Green. Any other comments?
    Ms. von Hippel. Yes. The official policy of the Obama 
administration, which I do support, is that it is up to the 
Afghans to elect their new government. If we interfere it is 
going to, as you were saying, it potentially could harm the 
candidates. So the best thing for democracy in Afghanistan is 
to have several transitions of government. It is going to be a 
rocky road to get there, but whether or not it is Karzai or 
someone else, hopefully it will not be Karzai because hopefully 
we will have different leaders that are democratically elected, 
which is what they need.
    Mr. Jones. I would just point out in answering the question 
that again we go back to the local population is the center of 
gravity in a counterinsurgency, and that means what we do not 
know, we do not have good public opinion polls that are telling 
us support bases among Gulag Asherzi and Ahadi, and Ashraf 
Ghani, and the range of others that look like they will 
probably run. But again, I think from a U.S. position this has 
to be supporting the process, not supporting a candidate; 
again, it has to be a local answer to who they want to 
represent them in Kabul. I think that is the only way around 
this one.
    Mr. Green. Well, it sounds like what I do when I go to one 
of my union halls, and I will stand up and say, you elect 
whoever you want as your President because I am going to work 
with you, and Mr. Chairman, sometimes that works out, keeps me 
out of union politics, but maybe that is what we need to do 
because we know the problems that President Karzai had. I mean, 
his brother, his family, the lack of support around the 
country, again some of it is geographical, some of it is 
tribal, but again I do not want us to foster his continuation 
if the Afghan people can actually develop some other things.
    So thank you, Mr. Chairman.
    Mr. Ackerman. The chair is announcing that I will pass on 
my questions and give each person 4 minutes, if you have 
another minute you want you can----
    Mr. Green. What can be done to enhance and promote 
additional regional security and stability between Afghanistan 
and Pakistan? And like I said earlier, I was there. We stayed 
at the hotel in Islamabad that is no longer there, and that was 
at that time the safest in Islamabad, and it was very 
protected. I do not know how many security screenings we had to 
go through to get there. But to work to get Pakistan and 
Afghanistan to realize they are all in this together.
    Mr. Cordesman. I think Secretary Clinton has said that 
negotiation will be key. It may be. But quite frankly, I think 
we will be dealing with a fractured Afghanistan and Pakistan 
for at least several years in the future. Pakistan will be torn 
apart by its own internal political issues. It will have the 
same problems with the army. It will take it at least 2 to 3 
years to really even move, if it can, into the Fatah and Baluki 
area effectively.
    So I think, should we negotiate? Yes. Should we count on 
practice and success? No. We will have to try to work these 
countries together and separately because we have no choice.
    Mr. Ackerman. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. I have two 
questions.
    The first is in my trip to Afghanistan something that 
alarmed me, candidly, was the use of CERD funds. Essentially 
originally intended to augment the resources available to 
military commanders on the ground, to help complement the work 
they are doing by winning hearts and minds and helping provide 
potable water, or do something with a health clinic. Those 
funds have grown, as I understand it, from about $26 million a 
year to a projected $900 million. That would make CERD, if it 
were a bilateral aid program, one of the biggest in the world.
    What is your take on whether this is maybe outgrown its 
utility because I am not at all convinced the military make the 
best folks in running development programs? They do many, many 
things well, but we may be asking just a little bit too much 
with them with respect to that.
    Ms. von Hippel. Sure. I will start. As far as my 
understanding, it was $200 million a year in 2006 and 2007; 
2008, it is supposed to be $400 million. This is in addition to 
the funds that USAID and other people have.
    Now, for some Afghans, this is their only support that they 
see, the only visible means of support. So, yes, you could 
argue that the military are doing the bulk of development, and 
being seen to deliver the bulk of development aid is a negative 
thing. On the other hand it does help them establish the fact 
that they are there to protect the community. They are there to 
work with the community.
    So I think that you see CERD funds as different from USAID 
funds. We are spending a lot more money on other types of 
funding in Afghanistan in addition to CERD funds.
    Mr. Connolly. Yes. By the way, Dr. von Hippel, when I was 
in Kabul the auditors on the ground cited $900 million.
    Ms. von Hippel. Really?
    Mr. Connolly. But I guess the pending request. Dr. Jones.
    Mr. Jones. Just quickly, I think the problem we have in 
looking at--with all due respect--to other organizations, the 
problem we have had is other options have simply been sub-
optimal. USAID in many cases takes too long. It uses a range of 
international contractors. There are positive, there are also 
negatives to use of CERD funds.
    I think where it has been done well in places, I will use 
the Konar example as one, there were State Department reps on 
the ground in helping figure out and negotiating with the 
Afghans on where it should be placed. There were also USAID 
people on the ground.
    So the benefit of CERD is that it does--able to get into 
Afghan hands quicker, local hands quicker. Locals tend to use 
that money, but I think in the PRTs that have used CERD most 
effectively have been ones that have actually integrated 
civilians into the CERD decision.
    But if USAID can figure out ways to get its funding 
quicker, and to minimize the use of international contractors, 
including American ones, I would be all for more USAID money.
    Mr. Connolly. But you are not troubled by the fact that our 
military is now looking at hundreds of millions of dollars of 
what are in effect aid dollars, something that it is not 
trained or equipped to manage.
    Mr. Cordesman. Well, Congressman, actually it is far better 
trained than most of the field people that will go in as part 
of the surge and aid who will come in with no prior experience 
because they are just being trained for the first time. Many of 
those military are on their second or third rotation. The PRTs 
that we talk about, again, the latest report from the 
Department of Defense, over 1,000 military, less than 40 
civilians. Those are the people in the forward areas and in the 
high risk areas. The aid people, the others, which have limited 
personnel, do not move there. We are talking about surging aid 
workers in there, but they would have to then have equally 
flexible aid and they will not be there under these plans until 
2010, and we are fighting now. So these are grim realities.
    I do not like these numbers, but they are the reality we 
have, and if we are going to win, we have to live with it.
    Mr. Connolly. My time is up, Mr. Chairman. I would love to 
take some issue with Mr. Cordesman because the issue is not how 
many tours of duty you have been on, the issue is the resident 
expertise you possess or do not possess in development 
assistance, and I think when you get into hundreds and hundreds 
of millions of dollars, you are talking very different orders 
of magnitude now, and the original mission of CERD has changed 
fundamentally, and that is the question; not whether our 
military are doing their job and have the courage to be in the 
front lines, but whether they have the resident expertise, and 
whether we really want to add that burden to an already full 
plate for our military.
    Mr. Ackerman. Thank you. Ms. Jackson Lee for 4 minutes.
    Ms. Jackson Lee. Thank you again, Mr. Chairman.
    I am not sure if this is accurate, Dr. Jones, but did you 
in your testimony indicate 271,000 in security forces in 
Afghanistan?
    Mr. Jones. I did, I did in the west, south and east based 
on the General Petraeus field manual ratios.
    Ms. Jackson Lee. And would those include Afghan forces as 
well?
    Mr. Jones. Well, that is the--I mean, this is the question. 
I was suggesting if you use those ratios, that is what is 
required if you use those ratios.
    Ms. Jackson Lee. Combination of. So you are not pinpointing 
what troops, you are saying a combination.
    Mr. Jones. Yes.
    Ms. Jackson Lee. Could be Afghan, could be NATO, could be 
United States.
    Mr. Jones. Could be Afghan nationals, could be Afghan 
local.
    Ms. Jackson Lee. All right. And foreign?
    Mr. Jones. Foreign.
    Ms. Jackson Lee. Right.
    Mr. Jones. That is our question about how we want to 
answer, I mean.
    Ms. Jackson Lee. But that is a huge number.
    Mr. Jones. That is a big number.
    Ms. Jackson Lee. That is a big number, and your basis for 
that is what? Containment and then security ongoing? How long 
would you think that would be required?
    Mr. Jones. Well, the focus would be protecting the local 
population. How long that would take is an open question. The 
average length that it takes to win a counterinsurgency is 14 
years.
    Ms. Jackson Lee. And you do not sense the comfort and 
support of the present administration in Afghanistan, is that 
something you think that would be acceptable?
    Mr. Jones. Well, I think if most of those forces were 
Afghan, military, army, army police and local forces, that----
    Ms. Jackson Lee. Do you see any inclination in the present 
administration in Afghanistan to agree with that?
    Mr. Jones. Well, the first test case for this is Wardak 
province where there is an effort to raise local forces, so I 
think we have a first test case in Wardak.
    Ms. Jackson Lee. And it is local forces funded by the 
central government or by the local government there?
    Mr. Jones. Funded directly through the Ministry of 
Interior, so by the national.
    Ms. Jackson Lee. So it would be the central government.
    Mr. Jones. Yes.
    Ms. Jackson Lee. What do you think will be the impact of 
that kind of force on our neighbor, Afghanistan's neighbor, 
Pakistan?
    Mr. Jones. I think if it is able to stabilize the country, 
I think it should be in everybody's interest.
    Ms. Jackson Lee. Do you think it would have some negative 
impact in terms of that large a force on their border?
    Mr. Jones. Should not. I mean, if they are locals, one 
thing that I am quite sure of in Afghanistan is there is not a 
lack of guns, ammunition and weapons, so----
    Ms. Jackson Lee. So you are talking about an organized 
security force so that can be stabilized so the children can go 
to school?
    Mr. Jones. Yes.
    Ms. Jackson Lee. Others can be--the Parliament can 
function? I had the unfortunate opportunity to hear from women 
parliamentarians, very difficult to go back to their 
constituencies. Thank you very much.
    Dr. Cordesman, you have just indicated the neighbor 
Pakistan is falling apart. What then is the nexus that we need 
to have between a restoration of Afghanistan and Pakistan?
    Mr. Cordesman. I do not think it is falling apart. I think 
it faces deep internal political tensions. Hopefully, it will 
resolve them democratically and with changes in the military.
    Ms. Jackson Lee. So there is hope?
    Mr. Cordesman. There is hope, definitely.
    Ms. Jackson Lee. And when you say that change in the army 
chief of staff or changing the structure?
    Mr. Cordesman. I think that ultimately the real question 
for Pakistan more than anything else is whether they can make 
the full conversion to a successful stable democratic 
structure, and the military can become a military that----
    Ms. Jackson Lee. Can we help them with that with 
legislation that focuses on democratization and social needs?
    Mr. Cordesman. You can try to help them. Will it really 
have much impact? Historically, no. It costs a lot of money, 
and you feel good afterwards.
    Ms. Jackson Lee. Well, let me say that I think we do have a 
way of strengthening those democratic ideals and I believe we 
cannot survive if we do not have a regional policy between 
India, Afghanistan and Pakistan, and I believe that this 
committee has the tools, and I thank the chairman for yielding 
to me. I look forward to working with him on that issue. Yield 
back.
    Mr. Ackerman. Thank you, Ms. Jackson Lee.
    If we could take another 3 minutes total, 1 
minute<greek-l>s deg. each, to have you answer the question you 
wish we would have asked you, but did not, or emphasize a point 
that you think is important that we hear again or hear.
    Mr. Cordesman. Well, let me begin, Mr. Chairman, by saying 
that in the testimony I gave you I gave a list of areas where 
we desperately need transparency, where we need to actually 
measure whether the strategies are working, whether we need to 
go from the past where we have had almost no meaningful 
reporting and accountability on what we are now calling AFPC, 
to find out whether the President's strategy is being fully 
implemented and actually working. I think the elements are 
there, but it is a grim fact that the administration for 7 
years has not provided meaningful reporting on what has 
actually happened in this war.
    It is also a fact we have concepts without detailed plans, 
without derailed matrix of their success, without even a clear 
picture of their cost. If we are to be successful by the summer 
of this year, we need to know what is happening, we need to see 
real progress, and we will need to be able to monitor it and 
see it more efficiently in the course of these years.
    Let me make one other point. For this entire time there has 
been no real effort within the State Department to tie together 
the U.S. aid effort, the international aid effort, provide 
accountability in any kind of real responsibility. How do you 
solve this? Make the deputy secretary personally accountable 
for the failures of the people dealing with aid, not only in 
State but the Department of Defense.
    Mr. Ackerman. Heard you loud and clear on that.
    Mr. Jones, would you like a minute?
    Mr. Jones. Sure.
    Mr. Ackerman. Dr. Jones.
    Mr. Jones. Very briefly, the role of neighbors, we have 
danced around it a little bit, I think what needs to be 
understood and for us to find ways to deal with is issues that 
are causing a great deal of insecurity among Afghanistan's 
major neighbors in the region. We see serious tension between 
the Indians and the Pakistanis which is impacting security in 
Afghanistan. We see Indian schools being built on the 
Afghanistan-Pakistan border. We see a range of consulates. This 
causes deep insecurity among the Pakistanis. I think we have to 
do a much better job of addressing a strategic level causes of 
insecurity between states. We have now marines that are going 
to be operating on the Afghan-Iranian border. That will also 
cause tension.
    My point here is there are a range of steps, in my view, 
that can be taken to decrease tension among the major powers in 
the region, and that is Ambassador Holbrooke's job, but I think 
there are a range of things he can do.
    The only last thing I would say on neighbors is we have 
members of the Taliban's Intersura operating in some cases 
openly in Quetta, in Karachi. How can we continue to let that 
happen? How can senior members, whether it is Barader or Omir 
or Zeker, continue to operate openly?
    I yield my time.
    Mr. Ackerman. Thank you very much. Dr. von Hippel.
    Ms. von Hippel. Yes, I would just like to reemphasize a 
point I made earlier about changing the paradigm from this very 
heavy contractor-driven development program, one that never 
really worked in Iraq, and is not working in Afghanistan.
    We do not need to spend nearly as much money as we are 
spending now to make things work. We need to get more aid 
directly to the people, and I think we need to put a lot more 
pressure on our international partners to work very closely 
with us and to build up the capability of the U.N. so that they 
can make sure that everybody is singing to the same hymn sheet.
    Mr. Ackerman. Thank you. On behalf of our entire committee 
I want to thank the panel. You have been very impressive, very 
articulate, very succinct, and made your points with great 
clarity, and with the thanks of all the members of the 
committee the committee stands adjourned.
    [Whereupon, at 1:32 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
